      Department of Homeland Security




      CBP’s Strategy to Address Illicit Cross Border Tunnels




OIG-12-132                                   September 2012

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                               Washington, DC 20528 / www.oig.dhs.gov


                                  SEP 2 6 2012
MEMORANDUM FOR:                The Honorable Rafael Borras
                               Under Secretary for Management
                               Department of Homeland Security

                               Michael J. Fisher
                               Chief, U.S. Border Patrol
                          ~~ ~M~er Protection
FROM:                    L C~r ton I.     ann
                               Acting Deputy Inspector General

SUBJECT:                       CBP's Strategy to Address Illicit Crass-Border Tunnels

Attached for your action is our final report, CBP's Strategy to Address Illicit Cross-Border
Tunnels. We incorporated the formal comments from the Department, and the U.S.
Customs and Border Protection in the final report.

The report contains two recommendations to U.S. Customs and Border Protection and
two recommendations to the Department to enhance the overall effectiveness of
counter-tunnel efforts. We received one consolidated response from the Department
and U.S. Customs and Border Protection. Your offices concurred with three of the
recommendations and did not provide sufficient detail for concurrence or non-
concurrence with one recommendation. As prescribed by the Department of Homeland
Security Directive 077-1, Follow-Up and Resolutions for the Office of Inspector General
Report Recommendations, within 90 days of the date of this memorandum, please
provide our office with a written response that includes your (1) agreement or
disagreement, (2) corrective action plan, arid (3) target completion date for each
recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of each
recommendation. Until your response is received and evaluated, recommendations 1,
2, and 3 will remain open and resolved, and recommendation 4 will remain open and
unresolved.

During this audit, it came to our attention that a family member of a senior OIG official
was employed by an entity associated with this audit. To ensure that this impairment
did not affect our findings and conclusions, we thoroughly reexamined our work on this
audit, as well as results. Through this reexamination, we verified that the impairment
did not affect our results; our evidence is sound and fully supports our findings and
conclusions.




                                                                                               /   ..
                        OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Anne L. Richards, Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   

   Executive Summary............................................................................................................. 1 

   

   Background ........................................................................................................................ 2 

   

   Results of Audit ................................................................................................................... 5 

   

          CBP Counter-Tunnel Strategy and Need for Tunnel Detection Technology........... 6 

          Recommendations .................................................................................................. 9 

          Management Comments and OIG Analysis .......................................................... 10 


   Appendixes
    

              Appendix A:          Objectives, Scope, and Methodology ............................................ 13 

              Appendix B:          Management Comments to the Draft Report ............................... 15 

              Appendix C:          Major Contributors to This Report ................................................ 18 

              Appendix D:          Report Distribution........................................................................ 19 


   Abbreviations
              CBP                   U.S. Customs and Border Protection
              DHS                   Department of Homeland Security
              HSI                   U.S. Immigration and Customs Enforcement Homeland Security
                                    Investigations 

              OIG                   Office of Inspector General 

              

              





www.oig.dhs.gov                                                                                                                OIG-12-132
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Illicit cross-border tunnels along the southwest border of the United States represent a
   significant and growing threat to border security. Criminals primarily use the tunnels to
   transport illegal narcotics into the United States. Since 1990, law enforcement officials
   have discovered more than 140 tunnels that have breached the U.S. border, with an 80
   percent increase in tunnel activity occurring since 2008. We performed this audit to
   determine whether U.S. Customs and Border Protection (CBP) has developed an
   operational strategy to detect and remediate cross-border tunnels, and has acquired
   tunnel detection technology.

   CBP detects and remediates cross-border tunnels as part of its overall border security
   and law enforcement missions. It has modified its field operations to better detect and
   respond to the threats posed by the tunnels. However, CBP does not have the
   technological capability to detect illicit cross-border tunnels routinely and accurately.
   Until CBP has this capability, criminals may continue to build cross-border tunnels
   undetected.

   CBP is creating a program to address capability gaps in countering the cross-border
   tunnel threat. As part of this effort, CBP is drafting the documents required by the DHS
   Acquisition Instruction/Guidebook 102-01-001 to develop and acquire tunnel detection
   technology. Additionally, CBP plans to establish a Program Management Office to
   provide leadership, strategy, and organization to the Department-wide counter-tunnel
   efforts.

   The program must address the mission needs of both CBP and Homeland Security
   Investigations, a directorate of Immigrations and Customs Enforcement, because both
   have concurrent mission responsibility for combating cross-border tunnels. However,
   the program has not matured to a point where it demonstrates how it will consider the
   needs of Homeland Security Investigations. The Department has ultimate responsibility
   for approving CBP’s acquisition program, as well as allocating resources and making
   decisions to counter the tunnel threat. If the program does not take into account the
   needs of both components, there is an increased risk of not achieving the Department’s
   goal of disrupting criminal organizations that engage in cross-border smuggling.

   We are making two recommendations to CBP to improve consideration of the needs of
   both CBP and Homeland Security Investigations. We are also making two
   recommendations to the Department to improve coordination and oversight of CBP and
   Homeland Security Investigations counter-tunnel efforts. The Department and CBP
   agreed with three of our recommendations and did not provide sufficient detail for
   concurrence or non-concurrence with one recommendation.


www.oig.dhs.gov                                1                                      OIG-12-132
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Background
   The illegal use of cross-border tunnels is a significant homeland security vulnerability
   and an unchecked method of entry into the United States. Since 1990, law enforcement
   officials have discovered more than 140 cross-border tunnels, with an 80 percent
   increase in tunneling activity occurring since 2008. The increase in the number of
   tunnels over the past 4 years may be attributed to border fencing and an increased
   number of Border Patrol Agents. Tunnels are primarily used to smuggle narcotics. Law
   enforcement has recovered approximately 169,000 pounds of narcotics, valued at more
   than $200 million, from drug traffickers using tunnels. Criminals also attempt to use
   cross-border tunnels to smuggle contraband, currency, and weapons.

   An illicit tunnel is an underground passageway used to conceal the movement of
   humans or contraband with the intent of circumventing the border defenses of the
   United States. It must be purposefully constructed, cross the U.S. border, and have an
   entry or exit point.

   There are three main types of tunnels: rudimentary, interconnecting, and sophisticated.

           Rudimentary tunnels are shallow, crudely constructed, and travel only a short
           distance. Rudimentary tunnels often cause a sinkhole, or ground surface collapse.




                  Source: U.S. Customs and Border Protection.




www.oig.dhs.gov                                       2                               OIG-12-132
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

           Interconnecting tunnels are constructed to connect with existing subterranean
           infrastructure, such as storm drains or sewers, to gain cross-border access.




                  Source: U.S. Customs and Border Protection.


           Sophisticated tunnels are elaborately constructed and may use shoring,
           ventilation, electricity, and rail systems. Such tunnels have stretched more than
           2,000 feet. Often the tunnel entrances and exits are located within existing
           structures, such as in residences or warehouses.




                  Source: U.S. Immigration and Customs Enforcement News Release, November 2011.




www.oig.dhs.gov                                       3                                           OIG-12-132
                                        OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security



   Figure 1 breaks down the percentage of detected tunnel types. 


           Figure 1. Percentage of Detected Tunnels by Type as of December 2010


                                                  16%
                                                                                   Rudimentary
                                          42%
                                                                                   Interconnecting

                                            42%                                    Sophisticated




            Source: DHS OIG from HSI Baseline Assessment of Illegal Tunnel Activity, December 2010.


   Through 2010, the majority of cross-border discovered tunnels were in Arizona and
   California. Geography and surrounding infrastructure heavily influence the number and
   type of tunnels constructed in different areas along the southwest border. For example,
   in Nogales the existing underground drainage and sewage system provides opportunities
   for interconnecting tunnels. In San Diego, the clay-like soil facilitates the construction of
   sophisticated tunnels, and the buildings on both sides of the border allow for the
   concealment of tunnel entry and exit points. In contrast, areas along the border with
   surface water, such as the Rio Grande in Texas, are at a low risk for tunneling activity.
   Figure 2 illustrates the detected tunnels by State and tunnel type.

           Figure 2. Detected Tunnels, Classified by State and Type, as of December 2010
             60
                                                                     49
             50
                                                      37
             40
                                                                                       Rudimentary
             30
                                                                                       Interconnecting
                                                                          21
             20                                                 14                     Sophisticated
                                            8     9
             10
                        1    1      0
               0
                            Texas           California            Arizona


            Source: DHS OIG from HSI Baseline Assessment of Illegal Tunnel Activity, December 2010.
            Note: This graph does not include tunnels for which there were insufficient reporting data.



www.oig.dhs.gov                                            4                                              OIG-12-132
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   The Department of Homeland Security (DHS) has a strategic goal to disrupt and
   dismantle criminal organizations that engage in smuggling and trafficking across the
   U.S. border. CBP and U.S. Immigration and Customs Enforcement Homeland Security
   Investigations (HSI) have mission responsibilities to combat narcotics smuggling and
   trafficking, which include countering threats from the construction and use of cross-
   border tunnels. CBP’s responsibilities for combating tunnel threats include detecting
   and remediating tunnels. HSI is responsible for investigating individuals and criminal
   organizations engaged in illegal tunneling activity. The DHS Science and Technology
   Directorate supports CBP’s tunnel detection efforts by assisting with the development
   and evaluation of detection technology.

   We conducted this audit to determine whether CBP has developed an operational
   strategy to detect and remediate illegal cross-border tunnels, and has acquired tunnel
   detection technology.

   Results of Audit
   CBP detects and remediates illicit cross-border tunnels as part of its overall border
   security and law enforcement missions. CBP has modified its operations to better
   detect and respond to the threats posed by the different types of tunnels. However,
   CBP does not have the technology to allow it to detect tunnels routinely and accurately.
   CBP has stated that it can best address this capability gap through the acquisition of
   tunnel detection technology. Until CBP has this detection capability, criminals may
   continue to build cross-border tunnels undetected.

   CBP is creating a program to address capability gaps in countering the cross-border
   tunnel threat. As part of this effort, CBP is drafting the documents required to develop
   and acquire tunnel detection technology. Additionally, CBP plans to establish a Program
   Management Office to provide leadership, strategy, and organization to DHS-wide
   counter-tunnel efforts. The program must address the mission needs of both CBP and
   HSI, because both have concurrent mission responsibility for combating cross-border
   tunnels. However, the program has not matured to a point where it demonstrates how
   it will consider the needs of HSI. The Department has ultimate responsibility for
   approving CBP’s acquisition program, as well as allocating resources and making
   decisions to counter the tunnel threat. If the program does not take into account the
   needs of both components, there is an increased risk of not achieving the Department’s
   goal of disrupting criminal organizations that engage in cross-border smuggling.




www.oig.dhs.gov                               5                                      OIG-12-132
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

           CBP Counter-Tunnel Strategy and Need for Tunnel Detection Technology 


           CBP’s Strategy for Counter-Tunnel Efforts

           CBP addresses the illicit cross-border tunnel threat as part of its overall strategy
           to secure the U.S. borders and facilitate legitimate trade and travel. Within CBP,
           the Office of Border Patrol has primary responsibility for preventing the entry of
           those who attempt to enter the United States illegally or smuggle goods into the
           country between the ports of entry.

           Modified Operations to Detect and Respond to Threats

           The type of tunnel—rudimentary, interconnecting, or sophisticated—dictates
           CBP’s method of detection and response. CBP has modified its operations to
           address the different types of tunnels. For example:

                  •	 CBP conducts routine patrols to detect sinkholes and ground surface
                     collapses associated with rudimentary tunnels.

                  •	 CBP has created teams of Border Patrol Agents to patrol and stop illegal
                     activity in existing storm drain and sewer infrastructure in response to
                     the interconnecting tunnel threat. These teams also map the existing
                     infrastructure in high-risk areas.

                  •	 CBP participates in counter-tunnel task forces led by HSI. These task
                     forces gather information concerning border-area criminal activity. The
                     resulting intelligence has proven useful in locating sophisticated tunnels.
                     The task forces also conduct criminal investigations to assist in the
                     prosecution of those involved in illegal tunneling activity.

                  •	 CBP remediates discovered tunnels. Remediation involves closing the
                     tunnel with concrete or other material, rendering it unusable.

           CBP also uses intelligence to identify areas at high risk for illegal cross-border
           tunnels. This intelligence can either be actionable, identifying the location of a
           specific tunnel, or strategic, identifying trends across the southwest border. CBP
           has developed a tunnel threat map that uses the locations of prior tunnel
           discoveries, soil conditions, and geography to identify areas along the southwest
           border at high risk for tunneling activity.




www.oig.dhs.gov                                   6	                                      OIG-12-132
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           Although CBP has modified its operations to address the tunnel threat, it does
           not have the technological capability to detect tunneling activity routinely and
           accurately. Until CBP has this capability, criminals may continue to build cross-
           border tunnels undetected. CBP has stated that it can best address this
           capability gap through the development and acquisition of detection technology.
           However, CBP has not been able to identify any existing tunnel detection
           technology that functions effectively in its operating environment.

           CBP’s Efforts To Acquire Technology

           In 2008, CBP began collaborating with the DHS Science and Technology
           Directorate, other Federal partners, and private industry to develop and acquire
           tunnel detection technology. As part of this collaboration, CBP conducted
           market research, but concluded that existing commercial technologies do not
           meet its needs. CBP is piloting and evaluating commercial and Department of
           Defense tunnel detection technologies, but these pilot programs are not yet
           complete. Even if one of these piloted technologies proves to be effective, CBP
           does not have an acquisition program in place to procure that technology.

           In March 2010, CBP designated the Office of Border Patrol as the lead office
           responsible for tunnel detection efforts. The Office of Border Patrol determined
           a need to develop a Tunnel Detection and Technology Program. This program
           will provide CBP with the authority and funding it needs to develop and acquire
           technologies. To guide program development, CBP formed an Integrated
           Product Team, which includes members from the Office of Border Patrol, HSI,
           the DHS Science and Technology Directorate, and other stakeholders. The
           Integrated Product Team is responsible for drafting the acquisition planning
           documents that CBP and DHS require to create a program. In conjunction with
           the acquisition effort, CBP plans to establish a Program Management Office to
           provide leadership, strategy, and organization to Department-wide counter-
           tunnel efforts.

           Creation of a Tunnel Detection Technology Acquisition Program

           In accordance with the DHS Acquisition Instruction/Guidebook 102-01-001,
           several key documents must be in place and approved by CBP before DHS
           approves the program. Figure 3 presents these key documents.




www.oig.dhs.gov                                7                                      OIG-12-132
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

         Figure 3. Key Acquisition Documents To Be Developed Prior to Program Approval 

                      Document Name                       Answers the question…
                  Mission Needs Statement         What do we need?
                    Concept of Operations         How will it be employed in the field?
                                                  What is our best option in terms of
                   Analysis of Alternatives
                                                  cost, schedule, and performance?

           To date, the only program document that the Integrated Product Team has
           prepared is a draft copy of the Mission Needs Statement. The statement
           identifies CBP mission needs and capability gaps related to cross-border tunnels.
           However, because Mission Needs Statements are not required to consider the
           operational dependencies of other components, this document, as appropriate,
           does not define or assess the interdependencies between CBP and HSI.

           To meet the Department’s strategic goal of preventing the cross-border
           smuggling of narcotics, the program needs to address both the investigative
           needs of HSI and the detection capability requirements of CBP. HSI conducts
           criminal investigations and is operationally dependant on CBP’s use of
           technology not interfering with its investigative efforts. For example, to support
           HSI investigations, tunnel detection technology may need to operate covertly so
           as to not alert criminals to the presence of law enforcement.

           CBP has not completed the documentation required for program approval, and is
           not required to do so before the Department approves the Mission Needs
           Statement in the first quarter of fiscal year 2013. Thus, the program has not
           matured to a point where it can demonstrate how it will consider the needs of
           HSI. If the program does not address the needs and operational dependencies of
           HSI, it may not achieve the Department’s strategic goals.

           To mitigate this risk, CBP plans to develop an Analysis of Alternatives. This
           analysis will identify alternative ways of filling the capability gaps identified in
           the Mission Needs Statement. It should consider the capabilities provided by
           both CBP and HSI, and identify a solution at an optimum level of cost, schedule,
           and risk. To support the Analysis of Alternatives, CBP plans to fund a study, to be
           completed in June 2013, of how to address joint capabilities through existing
           processes or procedures. Additionally, the Integrated Product Team plans to
           draft a Concept of Operations document to describe how acquired technology
           will be employed in the field.




www.oig.dhs.gov                                 8                                       OIG-12-132
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           Departmental Responsibility

           Acquisition programs go through both component and departmental review.
           The DHS Under Secretary for Management is designated as the Chief Acquisition
           Officer, and has the final approval authority for major acquisition programs,
           including the CBP Tunnel Detection and Technology program. As such, it is
           ultimately a departmental responsibility to ensure that CBP identifies and
           considers key operational dependencies, relationships, and corresponding
           program risks for both CBP and HSI before approving the program.

           Because illicit cross-border tunnels are a departmental issue, the capabilities and
           strategies to counter this threat need to be developed jointly, optimized to meet
           departmental needs, and ensure unity of effort. Although the CBP Program
           Management Office seeks to provide leadership, strategy, and organization to
           DHS tunnel threat efforts, it cannot make decisions regarding the best way to
           assign counter-tunnel resources outside of CBP. Because this office may not
           have sufficient information and authority to make strategic decisions affecting
           both CBP and HSI, a departmentally designated authority is needed that can
           make these strategic decisions on counter-tunnel policies and procedures.

           Recommendations

           We recommend that the Chief, U.S. Border Patrol:

           Recommendation #1:

           Conduct the planned study of how CBP can address tunnel detection capabilities
           through existing processes and procedures in support of the Analysis of
           Alternatives for the Tunnel Detection and Technology Program.

           Recommendation #2:

           Complete the planned Concept of Operations document describing how the
           identified capabilities need to function from a cross-component perspective to
           support the Analysis of Alternatives for the Tunnel Detection and Technology
           Program.

           We recommend that the Under Secretary for Management:




www.oig.dhs.gov                                 9                                      OIG-12-132
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           Recommendation #3:

           Provide oversight to ensure that CBP identifies and considers key operational
           dependencies, relationships, and corresponding program risks for CBP’s Tunnel
           Detection and Technology Program efforts prior to approving the program.

           Recommendation #4:

           Designate an authority to provide leadership, strategy, and coordination of DHS
           counter-tunnel efforts. This authority should have the information and ability to
           make strategic decisions on counter-tunnel policies and procedures across DHS
           components.

           Management Comments and OIG Analysis

           The Department and CBP provided comments on the draft of this report. A copy
           of the response in its entirety is included in appendix B. CBP also provided
           technical comments and suggested revisions to our report in a separate
           document. We reviewed CBP’s technical comments and made changes
           throughout our report where appropriate.

           Management Comments to Recommendation #1

           Concur. CBP awarded the contract to conduct the planned study on August 31,
           2012. The study’s results are expected to be available between May and August
           2013. The results will be used to determine how CBP will address tunnel
           detection capabilities through existing processes and procedures that support
           the Analysis of Alternatives for the Tunnel Detection and Technology Program.
           The estimated completion date is September 2013.

           OIG Analysis

           We consider the ongoing action taken by CBP to be responsive to the
           recommendation and the recommendation resolved. However, the
           recommendation will remain open until we receive and review a copy of how
           CBP has addressed its tunnel detection capabilities through existing processes
           and procedures that support the Analysis of Alternatives for the Tunnel
           Detection and Technology Program from the planned study’s results.




www.oig.dhs.gov                               10                                      OIG-12-132
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           Management Comments to Recommendation # 2

           Concur. CBP plans to complete the planned Concept of Operations document
           with an expected approval date by September 30, 2013.

           OIG Analysis

           We consider the ongoing action taken by CBP to be responsive to the
           recommendation and the recommendation resolved. However, the
           recommendation will remain open until we receive and review a copy of the
           approved Concept of Operations document.

           Management Comments to Recommendation # 3

           Concur. DHS plans to review in FY 2013 the CBP Tunnel Detection and
           Technology program against established thresholds in DHS Acquisition
           Management Directive 102-01. Additionally, the DHS Office of Program
           Accountability and Risk Management manages and implements the
           Department’s acquisition and governance policy and process, and provides
           senior leaders and program managers objective analysis of major investments.
           The estimated completion date is December 31, 2012.

           OIG Analysis

           We consider the ongoing action taken by Department to be responsive to the
           recommendation and the recommendation resolved. However, the
           recommendation will remain open until we receive and review a copy of the
           signed Acquisition Decision Memorandum, the official record of the Acquisition
           Decision Event that provides approval for CBP’s Tunnel Detection and
           Technology program. This document should describe the approval or other
           decisions made during consideration of approval of the program and any action
           items that need to be satisfied as a condition of the decision.

           Management Comments to Recommendation # 4

           The Department responded that the Under Secretary of Management is not the
           best individual to make a determination for whether a designated authority is
           needed. The Department stated that the DHS Office of Policy is the appropriate
           Office to address this recommendation because it has responsibility for
           developing DHS-wide policies, programs, and planning to promote and ensure
           quality, consistency, and integration across all Homeland Security missions. It


www.oig.dhs.gov                               11                                    OIG-12-132
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           also provides thought leadership and analysis to the Secretary and other
           Department leaders to facilitate decision making. The Office of Policy will ensure
           this recommendation is addressed with the Deputy Secretary for her
           consideration, as appropriate. The estimated completion date is September 30,
           2012.

           OIG Analysis

           Although we consider the ongoing action by the Office of Policy to be responsive
           to the recommendation, the Department did not provide sufficient detail for
           concurrence or non-concurrence with the recommendation. Therefore, until the
           Office of Policy addresses the recommendation with the Deputy Secretary, we
           will consider the recommendation open and unresolved. The Office of Policy
           needs to ensure that a designated authority is established to maintain a unity of
           effort for CBP and HSI in developing capabilities and strategies to counter tunnel
           threats since both have concurrent mission responsibilities for combating cross-
           border tunnels.




www.oig.dhs.gov                                12                                     OIG-12-132
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We conducted this audit to determine whether CBP has developed an operational
   strategy to detect and remediate illegal cross-border tunnels, and has acquired tunnel
   detection technology. We limited the scope of our audit to illicit cross-border
   underground tunnels along the southwest border between the United States and
   Mexico. We did not continue this audit past our survey phase because the program
   under review is being established and CBP is drafting the preliminary acquisition
   documents. However, we determined that there was sufficient information to provide
   an audit report on the status of the program and make recommendations to mitigate
   risks.

   We reviewed Federal, Department, and CBP policies, processes, and strategies related
   to acquisition and counternarcotics. These included the DHS Acquisition
   Instruction/Guidebook 102-01-001; CBP Draft Program Process Lifecycle Guide, Version
   1; and CBP National Tunnel Remediation Task Team Handbook; as well as the Office of
   National Drug Control Policy National Southwest Border Counternarcotics Strategy; DHS
   Counternarcotics Doctrine; DHS Strategic Plan for Fiscal Years 2012–2016; and CBP
   Strategic Plan for Fiscal Years 2009 to 2014. We also reviewed CBP and HSI reports on
   illicit tunnel activity and discoveries, including HSI’s Baseline Assessment of Illegal
   Tunnel Activity, December 2010; CBP’s Cross-Border Tunnels, Fiscal Year 2011 Report to
   Congress, First Semiannual Report, May 2011; and CBP’s Tunnel Remediation Situation
   Report, January 2012.

   We also reviewed documentation related to CBP operations on the southwest border
   and its Tunnel Detection and Technology Program. This included the CBP Cross-Border
   Tunnel Threat Integrated Products Team Charter, the draft CBP Cross-Border Tunnel
   Threat Operations Preliminary Mission Need Statement, CBP Tunnel Program Draft
   Operational Requirements Document, as well as the CBP California Corridor Unified
   Command Charter and the Homeland Security Advisory Council Southwest Border Task
   Force Report, Third Set of Recommendations, Fall 2011.




www.oig.dhs.gov                               13                                     OIG-12-132
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   Additionally, we reviewed documentation related to the development and evaluation of
   tunnel detection-related technologies. This included the Raytheon Tunnel Threat Map
   reports, the HSI Tunnel Detection Capability Assessment, and the CBP Technology
   Evaluation and Sustainment reports.

   We visited the Office of Border Patrol, San Diego Sector, and observed illicit cross-
   border tunnels currently secured by the Office of Border Patrol that were awaiting
   remediation. We also observed a previously remediated tunnel that CBP is using to test
   tunnel detection technologies.

   We interviewed senior officials within DHS, including those from CBP, HSI, and the DHS
   Science and Technology Directorate.

   We conducted this performance audit between December 2011 and March 2012
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards (GAGAS), except that we identified an
   impairment to our independence in appearance. Following completion of our audit, it
   came to our attention that a family member of a senior OIG official was employed by an
   entity associated with this audit. In our opinion, the impairment to our independence in
   appearance did not affect the findings and conclusions developed during this audit.

   GAGAS requires that we plan and perform the audit to obtain sufficient, appropriate
   evidence to provide a reasonable basis for our findings and conclusions based upon our
   audit objectives. We believe that the evidence obtained provides a reasonable basis for
   our findings and conclusions based upon our audit objectives, and that the impairment
   to our independence in appearance did not affect this evidence or any findings and
   conclusions.




www.oig.dhs.gov                              14                                     OIG-12-132
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                  l .S. Do:plrIOICDIIlC Iiomo:llmi S"" .. rily
                                                                                                     Wa,h ingl[)!l . O.C 20528




                                                                                    Homeland
                                                                                    Security
                                                           Augu~t   1, 20 12


              MEMORANDUM FOR ,               Charles K . Edwards
                                             Acting ]nspector General

                                             Jim II. Crumpacker \c.!\.t~_~
                                             Director           \)
                                             Dcpartmcntal GAO-OIG Liaison Office

              SUBJECT,                       Draft Rcport, "eBP' s Strategy to Addrcss Ill icit Cross-Border
                                             Tunnels" (Proj ect Number 12-04I -AUD-CBP)

              Dear Mr. F.dward~:

              Thank. you for the opportunity 10 revit!w and r.;ommt!nl on this dran repnn. The Department
              of Homeland Security (DHS) appreciates the Ottice of Inspector General' s (~IG ' s) work in
              pimming and conducting its review and issuing tills report.

              The Department is pleased to note OIG's positive recognition that U.S. Customs alll.! Bunlt:r
              Protection (eBP) has modified its operations to better detect and respond to the threats posed
              by different types of illicit subterranean cross-border tunnels . DHS devotes significant levels
              of personnel, technology, and resources in support of our border security efforts, working
              24n with state, local, tribal, and federal law enforcement to target illicit networks trafficking
              in people, drugs, weapons, and money.

              Smugglers and OTher cross-border criminal organizations use a wide range of ever-eyolving
              methods to nttempt to move their contraband into the Uruted States, making our mission more
              complex and challenging. When tunnels are detected, DHS personnel fo llow established
              protocols fo r coordination. confirmation, assessment, investigation, exploitation, and
              remediation.

              Since March 20ID, CBP ' s Office of Border Patrol (OBP) has led eBP Tunnel Detection and
              Technology Progmm efforts with support from the CBP Office of Technology Innovation and
              Acqui sition . This program has worked 10 integraTe DHS, CBP, U.S . Immigration and
              Customs Enforcement Homeland Security Investigations, thc DHS Science and Technology
              Directorate, the Drug Enforcement .I\dm inistration, and other efforts into a single entity that
              addresses tunnel -related activities and technology.

              The successes have been many, such as the discovery, using state-of-the-art electronic
              surveillance teclmology and Dlhcr in vt!stigative tt!.:hniqut!s, last Novemher of a sophisticated
              400-yard underground cross-border turmel near San Diego that was over 40 feet deep and
              equipped with rail, lighting, and \'entilation sysLems. DHS is 1.:1Immilled lo provid ing its




www.oig.dhs.gov                                                 15                                                               OIG-12-132
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              frontline agents and officers with the tools they need to effectively achieve their mission of
              securing America 's borders and fac ilitatmg the movement of legitimate travel and trade.

              The draft report contained four recommendations with which DHS concurs. Specifically,
              01(1 recommended:

              Recommendation 1: That the Chief, U .S. Border Patro l (USBP) conduct the plunned study
              of how CBP can address tunnel detection capabi lities through existing processes. and
              procedures in support of the Analysis of Alternati ves tor the Tunnel Detection and
              Technology Program.

              Response: Concur. The contract to conduct a planned study is scheduled to be awarded at
              the end of August 2012. Expected ddiverablcs arc: Doctrine, Training Material , Leadership,
              Personnel, Facilities plus Regulations, Grants, and Standards (DOTMLPF+RJO/S). The study
              is expected to take 9 to 12 months and should be available between May and August 20 13.
              LSOP will review the results then determine how CDP will address tunnel detection
              capabil ities through processes and procedures that support the Analysis of Alternatives for the
              Tunnel Detection and Technology Program. Estimated Completion Date (ECD):
              September 30, 2013

              Recommendation 2: That the Chie( USBP, complete the planned Concept ofOperl'ltions
              document describing how the identified capabilities need to function from a cross-component
              perspecti ....e to support the Analysis of Alternatives for the Tunnel Detection and T cchnology
              Program.

              Re~ponse :  Concur. OBP will complete the planned Concept of Operations document. The
              projected approval dale for the Preliminary Concept of Operations is September 18, 2012 .
              The process for approval oflhe Concept of Operations will be initiated the following day.
              Specifically, a Mission Needs Statement will be prepared and tentatively approved by
              October 18, 2012. Approval by an Acquisition Review Committee is expected by
              February 28, 2013. After receiving the DOTMLPF+RlO/S study results in August 20 13, the
              Operation Requirement Document wil l be drafted and submitted for approval. The Concept
              of Operations is expected to be approved by September 30, 2013.

              Recommendation 3: That the DHS Under Secretary for Managerru:::nl pruvioe uvt:r~ight to
              ensure that CBP identifies and considers key operational dependencies, relationships, and
              corresponding program risks for CBP'~ Tunnel Detection and Technology Program efforts
              prior to approving the program.

              ResJlonse: Concur. DHS reviews its acquisition portfolio annually to develop the Major
              Acquisition Oversight List. Acquisition and service programs are reviewed against the
              thresholds established in DHS Acquisition Management Directive 102-01. For Fiscal Year
              20 13, the CBP Tunnel Detection and Technology program will be reviewed in accordance
              with the guidance. The DHS Office of Program Accountability and Risk Management
              manages and implements the Department 's acquisition and governance po licy and process,
              and provides senior leaders and program managers objective analysis of major investments.
              ECD: December 31. 2012




                                                                                                               2




www.oig.dhs.gov                                              16                                                    OIG-12-132
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




              Re~ommendation     4: That the Under Secretary for Management designate an authority to
              provide leadership, strategy, and coordination of UHS counter-tunnel efforts. This authority
              should have the information and ability to make strategil,; lh~l,;i!)ions un cuunter-tunnel pulil,;jes
              and procedures across DHS components.

              Response: The DHS Under Secretary for Management is not the most appropriate individual
              to determine whether this designation is needed and, if so, to make it. The DHS Office of
              Policy is responsible for developing DHS-""ide policies, programs, and planning to promote
              and ensure quality, consistency, and integration across all Homeland Security missions . It
              a lso provides thought leadersh ip and analysis to the Secretary and other Department leaders to
              facilitate decision making. Along these lines, the Office of Policy will ensure this
              recommendation is addressed with the Deputy Secretary for her consideration, as appropriate.
              ECD: September 30, 2012

              Again, thank you for the opportunity to review and comment on this draft repon. Technical
              t.:urnrm::flts wen:: provided under separate cover. Please feel free to contact me if you have any
              questions, We look forward to working with you in the future.




                                                                                                                   3




www.oig.dhs.gov                                                 17                                                     OIG-12-132
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Brooke Bebow, Director
   Maryann Pereira, Audit Manager
   Shawn Cosman, Senior Auditor
   Nick Jathar, Auditor
   Johnson Joseph, Auditor
   Dawn E. Pizarro, Senior Auditor
   Tristan Weir, Program Analyst
   Kevin Dolloson, Communications Analyst
   Peter Christopher, Referencer




www.oig.dhs.gov                             18                  OIG-12-132
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   Under Secretary for Management
   Commissioner, U.S. Customs and Border Protection
   Director, U.S. Immigration and Customs Enforcement
   Audit Liaison, Management Directorate
   Audit Liaison, U.S. Customs and Border Protection
   Audit Liaison, U.S. Immigration and Customs Enforcement

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             19                             OIG-12-132
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
